No. _________
IN THE SUPREME COURT OF THE UNITED STATES

JONATHAN WALLACE GOMEZ,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent

PETITION FOR A WRIT OF CERTIORARI
APPENDIX

INDEX TO APPENDICES
Appendix A Judgment and Opinion of Fifth Circuit
Appendix B Judgment and Sentence of the United States District Court for the
Northern District of Texas

APPENDIX A

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

No. 19-11068
Summary Calendar

FILED
June 23, 2020
Lyle W. Cayce
Clerk

UNITED STATES OF AMERICA,
Plaintiff-Appellee
v.
JONATHAN WALLACE GOMEZ,
Defendant-Appellant
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 5:19-CR-16-1
Before HIGGINBOTHAM, HO, and ENGELHARDT, Circuit Judges.
PER CURIAM: *
Jonathan Wallace Gomez appeals the 264-month sentence imposed
following his convictions for carjacking and possession of a firearm in
furtherance of a crime of violence.

Gomez argues that the district court

reversibly erred in applying the career offender enhancement, pursuant to
U.S.S.G. §§ 4B1.1 and 4B1.2, to his sentence based on his Texas conviction for
aggravated assault causing serious bodily injury. Gomez urges that the Texas

Pursuant to 5TH CIR. R. 47.5, the court has determined that this opinion should not
be published and is not precedent except under the limited circumstances set forth in 5TH
CIR. R. 47.5.4.
*

No. 19-11068
aggravated assault statute is broader than generic aggravated assault and
lacks force as an element.
The Government has filed an unopposed motion for summary
affirmance, correctly asserting that the issue raised on appeal is foreclosed.
See United States v. Guillen-Alvarez, 489 F.3d 197, 200–01 (5th Cir. 2007)
(holding that a Texas aggravated assault conviction under TEXAS PENAL CODE
§ 22.02 is a crime of violence under the former U.S.S.G. § 2L1.2); see also
United States v. Shepherd, 848 F.3d 425, 427–28 (5th Cir. 2017) (reaffirming
the continued validity of Guillen-Alvarez after Mathis v. United States, 136 S.
Ct. 2243 (2016), and specifically holding that a Texas aggravated assault
conviction is a crime of violence under U.S.S.G. §§ 2K2.1 and 4B1.2); United
States v. Gomez Gomez, 917 F.3d 332, 333–34 (5th Cir.), petition for cert. filed
(U.S. July 19, 2019) (No. 19-5325) (holding Texas aggravated assault qualifies
as a crime of violence under 18 U.S.C. § 16(a) because it includes as an element
the use of force).
Gomez concedes that the sole issue raised on appeal is foreclosed by our
precedent, but he seeks to preserve it for further review.

Accordingly,

summary affirmance is appropriate. See Groendyke Transp., Inc. v. Davis, 406
F.2d 1158, 1162 (5th Cir. 1969).

The Government’s motion for summary

affirmance is therefore GRANTED, and the judgment of the district court is
AFFIRMED. The Government’s alternative motion for an extension of time to
file a brief is DENIED.

2

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
_______________________
No. 19-11068
Summary Calendar
_______________________
D.C. Docket No. 5:19-CR-16-1

United States Court of Appeals
Fifth Circuit

FILED
June 23, 2020
Lyle W. Cayce
Clerk

UNITED STATES OF AMERICA,
Plaintiff - Appellee
v.
JONATHAN WALLACE GOMEZ,
Defendant - Appellant
Appeal from the United States District Court for the
Northern District of Texas
Before HIGGINBOTHAM, HO, and ENGELHARDT, Circuit Judges.
JUDGMENT
This cause was considered on the record on appeal and the briefs on file.
It is ordered and adjudged that the judgment of the District Court is
affirmed.

APPENDIX B

,

UNITED STATES DISTRICT COURT

NORTHERN DISTRICT OF TEXAS LUBBOCK DIVISION

UNITED STATES OF AMERICA

§
§
§
§
§
§
§

V.

JONATHAN WALLACE GOMEZ
THE DEFENDANT:
�

□
□
□

pleaded guilty to count(s)
pleaded guilty to count(s) before a U.S. Magistrate
Judge. which was accepted by the court.
pleaded nolo contendere to count(s) which was
accepted bv the court
was found guilty on count(s) after a plea of not guilty

JUDGMENT IN A CRIMINAL CASE
Case Number: 5:19-CR-00016-H-BQ(l)
USM Number: 58437-177
David E Sloan
Defendant's Attorney

I and 2 of the indictment filed February 13, 2019.

The defendant is adjudicated guilty of these offenses:
Title & Section/ Nature of Offense

18 U.S.C. § 2119( I) Carjacking

01/23/2019

Offense Ended

Count
I

18 U.S.C. § 924(c) Possession Of A Firearm In Furtherance Of A Crime Of Violence

01/23/2019

2

The defendant is sentenced as provided in pages 2 through 7 of this judgment. The sentence is imposed pursuant to the Sentencing
Reform Act of 1984.

D

The defendant has been found not guilty on count(s)

�

Count(s) 3

� is

D

Remaining count(s) are dismissed on the motion of the United States

It is ordered that the defendant must notify the United States attorney for this district within 30 days of any change of name,
residence, or mailing address until all fines, restitution, costs, and special assessments imposed by this judgment are fully paid. If
ordered to pay restitution, the defendant must notify the court and United States attorney of material changes in economic
circumstances.

Se tember 13 2019

ames Wesley Hendrix
Judge
nited States District
-

Name and Title of Judge

Se�tember 13 ,_ 2019 _

Date

AO 2458 (Rev. TXN 2/18) Judgment in

DEFENDANT:

CASENUMBER:

a

Criminal Case

Judgmcnt-Page2of7

JONATHANWALLACEGOMEZ
5:19-CR-00016-H-BQ(l)

IMPRISONMENT
The defendant is hereby committed to the custody ofthe United States Bueau ofPrisons to be imprisoned for a total term

ot

180 months as to count [; and 84 months as to count 2 to run consecutive to Count I for a total of264 months, which shall run
consecutive to any sentence imposed in Case Nos. 2012435,845t 2014404,341.2014404,346. and,2014403,736 all pending in the
364s District Court, Lubbock County, Texas.

X

The coun makes the following recommendations to the Bureau ofPrisons: Incarceration at USP Florence. Colorado.

X
tr

The defendant is remanded to the custody ofthe United States Marshal.
The defendant shall surrender to the United States Marshal for this district

tr

al

tr

as

n

a.m.

p.m.

on

notified by the United States Marshal.

The defendant shall surrender for service of sentence at the institution designated by the Bureau ofPrisons

E
E
tr

before 2 p.m. on
as

notified by the United States Marshal.

as

notified by the Probation or Pretrial Services Office

RETURN
I have executed this judgment

as

Defendant delivered on

at

follows:

to

with a certified copy ofthisjudgment.

UNI IED STATES MARSHAL

By
DEPUTY UNITED STATES MARSHAL

AO 2458 (Rev. TXN 2/18) Judgrnent in a Criminal Case

DEFENDANT:
NUMBER:

CASE

Judgment-Page3of7

JONATHANWALLACEGOMIIZ
5: I 9-CR-00016-H-BQ( I )

SUPERVISED RELEASE
Upon release Ilom imprisonment, the defendant shall be on supervised release for a term of : three (3) years as to Count
(3) years as to Count 2 to run concurrent with one another for a total ofthree (3) years.

I

and three

MANDATORY CONDITIONS

l.
2.
3.

You must not commit another federal, state or local crime.
You must not unlawfully possess a controlled substance.
You must reAain from any unlawful use ofa controlled substance. You must submit to one drug test within l5 days ofrelease
from imprisonment and at least two periodic drug tests thereafter, as determined by the coun.

I

The above drug testing condition is suspended, based on the coufi's determination that you pose a low risk of future
substance abuse. (check if applicable)

4. E

You must make restitution in accordance with l8 U.S.C. S$ 3663 and 36634 or any other statute authorizing a sentence
of restitution. (check if applicable)

5. X
6. E

You must cooperate in the collection of DNA as directed by the probation oftrcer. (check if applicable)

7. E

You must comply with the requirements ofthe Sex Offender Regisfation and Notification Act (34 U.S.C. g 20901, et
seq.) as directed by the probation officer, the Bureau ofPrisons, or any state sex offender registralion agency in which
you reside, work, are a student, or were convicted ofa quali$ing offense. (check ifapplicable)
You must participate in an approved program for domestic violence. (check ifapplicable)

You must comply with the standard conditions that have been adopted by this court as well as with any additional
conditions on the attached page.

AO 2458 (Rev. TXN 2/18) Judgnent in

a

Criminal Casc

DEFENDANT:

JONAT}IAN WALLACE GOMEZ

CASE NUMBER:

5:

Judgment-Page4of7

l9-CR-000 I 6-H-BQ( I )

STANDARD CONDITIONS OF SUPERVISION
As pan of your supervised release, you must comply with the following standard conditions ofsupervision. These conditions are
imposed because they establish the basic expectations for your behavior while on supervision and identifo the minimum tools needed
by probation officers to keep informed, report to the court about, and bring about improvements in your conduct and condition.

l. You must report to the probation office in the federal judicial district where you are authorized to reside within 72 hours ofyour
release fiom imprisonment, unless the probation oflicer instrucls you to report to a different probation oflice or within a different time
frame.
2. After initially reporting to the probation office, you will receive instructions liom the court or the probation officer about how and
when you must report to the probation officer, and you must report to the probation officer as instructed.
3. You must not knowingly leave tbe federaljudicial district where you are authorized to reside without first gefting permission fiom
the court or the probation officer.
4. You must answer huthfully the questions asked by your probation officer.
5. You must live at a place approved by the probation officer. lfyou plan to change where you live or anyhing about your living
arrangements (such as the people you live with), you must notiry the probation officer at least l0 days before the change. If notirying
the probation officer in advance is not possible due to unanticipated circumstances, you must notiry the probation officer within 72
hours ofbecoming aware ofa change or expected change.
6. You must allow the probation officer to visit you at any time at your home or elsewhere, and you must permit the probation oflicer
to take any items prohibited by the conditions ofyour supervision that he or she observes in plain view.
7. You must work full time (at least 30 hours per week) at a lawful qpe ofemployment, unless the probation officer excuses you fiom
doing so. Ifyou do not have full-time employment you must try to find full-time employment, unless the probation officer excuses
you from doing so. Ifyou plan to change where you work or an),thing about your work (such as your position or yourjob
responsibilities), you must notiry the probation officer at least I 0 days before the change. If notifuing the probation officer at least 10
days in advance is not possible due to unanticipated circumstances, you must notio/ the probation offrcer within ?2 hours of
becoming aware ofa change or expected change.
8. You must not communicate or interact with someone you know is engaged in criminal activity. Ifyou know someone has been
convicted ofa felony, you must not knowingly communicate or interact with that person without first getting the permission ofthe

probation officer.
Ifyou are arested or questioned by a law enforcement ofncer, you must notiry the probation officer within 72 hours.
10. You must not own, possess, or have access to a firearm, ammunition, destructive device, or dangerous weapon (i.e., an),thing that
was designed, or \,'/as modifi€d for, the specific purpose ofcausing bodily injury or death to another person such as nunchakus or

9.

tasers).
I l. You must not act or make any agreement with a law enforcement agency to act as a confidential human source or informant
without first getting the permission ofthe court.
12. Ifthe probation officer determines that you pose a risk to another person (including an organization), the probation officer may
require you to notifo the person about the risk and you must comply with that instruction. The probation officer may contact the
person and confirm that you have notified the person about the risk.
13. You must follow the instructions ofthe probation officff related to the conditions of supervision.

U.S. Probation Office Use Only
A U.S. probation officer has instructed me on the conditions specified by the court and has provided me with a
wdtten copy ofthisjudgment containing these conditions. I understand additional information regarding these
conditions is available at \\'\\-\\'.lxnp.uscouns.go\'.
Defendant's Signature

Date

AO 2458 (Rev. TXN 2/18) Judgment in a Criminal Case

DEFENDANT:
CASENUMBER:

Judgment-Page5of7

JONATI{AN WALLACE GOMEZ
5:

19-CR-00016-H-BQ(1)

SPECIAL CONDITIONS OF SUPERVISION
The defendant shall abstain from the use of alcohol and all other intoxicants during the term of
superusron.
2

The defendant shall participate in a program (inpatient and/or outpatient) approved by the U.S.
Probation Office for treatment of narcotic, drug, or alcohol dependency, which will include testing for
the detection of substance use or abuse. The defendant shall contribute to the costs of services rendered
(copayment) at a rate of at least $20.00 per month.

3

The defendant shall participate in mental health treatment services as directed by the probation officer
until successfully discharged. These services may include medications prescribed by a licensed
physician. The defendant shall contribute to the costs of services rendered (copayment) at a rate of at
least $20.00 per month.

AO 2458 (Rev. TXN 2/18) Judgnent in a Criminal Case

DEFENDANT:

CASENUMBER:

Judgment.-Page6of7

JONATHANWALLACEGOMEZ
5:19-CR-00016-H-BQ(l)

CRIMINAL MONETARY PENALTIES
The defendant must

TOTALS

n
tr

the total criminal
Assessment
$200.00

The determination ofrestitution is deferred

ties under the schedule

of

JVTA Assessment*

until

Fine

Restitution

$.00

s.00

An Amended Judgment in a Criminql Cqse (AO215C) will be entered

after such determination.
The defendant must make restitution (including communiS, restitution) to the following payees in the amount listed below.

If the defendant makes a partial payment, each payee shall receive an approximately proponioned payment. However, pursuant
U.S.C. $ 3664(i), all nonfederal victims must be paid before the United States is paid.

tr
tr
tr

to l8

Restitution amount ordered pusuant to plea agreement $
The defenda.nt must pay interest on restitution and a fine ofmore than $2,500, unless the restitution or fine is paid in full before
the fifteenth day after the date of the judgment, pursuant to l8 U.S.C. $ 3612(0. An ofthe paym€nt options on the schedule of
payments page may be subject to penalties for delinquency and default, pursuant to l8 U.S.C. $ 3612(g).
The court determined that the defendant does not have the ability to pay interest and it is ordered that:

E
E

the interest requirement is waived for
the interest requirement for

the

the

! fine
E fine

tr
D

restitution
restitution is modified as follows:

* Justice for Victims ofTrafficking Act of20l5. Pub. L. No. I l4-22

** Findings for

th€ total amount oflosses are required under Chapters 109A,
September 13, 1994, but before April23, 1996.

I10. I l0A, and I l3A ofTitle l8 for offenses committed on or alter

AO 2458 (Rev. TXN 2/18) Judgrnent in

DEFEN DANT:

CASE NUMBER

a

Criminal Case

Judgment-Page7of7

JONATHAN WALLACE GOMEZ
5: 19-CR-0001 6-H-BQ( I )

SCHEDULE OF PAYMENTS
Having assessed the defendant's ability to pay, payment ofthe total criminal monetary penalties is due as follows:

A tr
E

E
B E
C tr

Lump sum payments
not later

of$

due immediately, balance due

than

, or

tr D, tr E, or
C,
Payment to begin immediately (may be combined with tr

in

accordance tr C,

(e.g., weekly. monthl. quarterly) installments

Payment in equal

(e.g., months or years), to commence

D tr

(e.9., months or years), to commence

E E

_

a

F below; or

D,

or

tr

of$

over

F below); or
a

period

of

(e.g., 30 or 60 days) after the date ofthis judgment; or

Payment in equal 20 (e.g., weekly, monthly, quarterly) installments ofS

to

!
tr

over

a

period

of

(e.g., 30 or 60 ddys) after release from imprisonment

term ofsupervision; or

(e.g., 30 or 60 days) after release
Payment during the term of supewised release will commence within
fiom imprisonment. The court will set the payment plan based on an assessment ofthe defendant's ability to pay at that

time; or

F X

Special instructions regarding the payment of criminal monetary penalties:
is ordered that the D€fendant shall pay to the United States a special assessment of 5200.00 for Counts
which shall be due imm€diately. Said special assessment shall be paid to th€ Clerlq U.S. District Court.

It

I

and 2 ,

Unless the court has expressly ordered otherwise, ifthisjudgment imposes imprisonment, payment of criminal monetary penalties is
due during imprisonment. All criminal monetary penalties, except those payments made through the Federal Bureau ofPrisons'
tnmate Financial Responsibility Program, are made to the clerk ofthe court.
The defendant shall receive credit for all pa).ments previously made toward any criminal monetary penalties imposed.

E

Joint and Several
See above for Defendant and Co-Defendant Names and Case Numbers lirclrding defendaht hu bet), Total Amount, Joint and
Several Amount, and corresponding payee, if appropriate.

E

Defendant shall receive credit on his restitution obligation for recovery from other defendants who contributed to the same
loss that gave rise lo defendant's restitution obligation.

tr
tr
tr

The defendant shall pay the cost ofProsecution.
The defendant shall pay the following coult cost(s):
The defendant shall forfeit the defendant's interest in the following property to the United States:

payments shall be applied in the following order: (1) assessment, (2) restitution principal. (3) restitution interest. (4) fine principal,
(5) fine interest. (6) community restitution, (7) JVTA Assessment, (8) penalties, and (9) costs. including cost ofprosecutioo and court costs.

